No. 19A337
In The
Supreme Court of the United States
o

PETRICE RICKS, CHASLIE LAWRENCE LEWIS CHRISTOPHER LAWRENCE,
FREDRICK LAWRENCE, GREGORY LAWRENCE, CHARLIE LAWRENCE JR.,
REGINALD LAWRENCE, SAMUEL LAWRENCE, CHARLETTE LAWRENCE
JONES, CYNTHIA LAWRENCE TOLBERT, GWENDOLYN LAWRENCE
HARRISON, CHERYL LAWRENCE HUGHES, CAROLYN LAWRENCE, JANIE
LAWRENCE, AND CHARLIE LAWRENCE Sr.
Petitioners,
v.
UNIVERSITY HOSPITAL, et al„
Respondents,
On Appeal from the 11TH Circuit Court of Appeal, Southern District
Judge’s Order and Southern District Article I Magistrate’s Order:

CERTIFICATE OF SERVICE
It is hereby certified that the foregoing unbounded Petitioners’ Writ of Certiorari
has been delivered upon the United States Supreme Court Clerk of Court
Christopher Lawrence

t_MZ<j£hc£/
2740 HigMpointRbad
ime 11ville(5~GeOTgia‘ 30078
(224) 339 - 3600
January13, 2020
By depositing a copy of the same by Certified U.S. Postal Mail on this date of

^n'">

M&Ap.
T>
ii

